  FEDERAL ELECTION COMMISSION 


   OFFICE OF INSPECTOR GENERAL 





            FINAL REPORT

Audit of the Federal Election Commission's 

  Fiscal Year 2004 Financial Statements 





               December 2004 

           ASSIGNMENT OIG-04-0 1 

                       FEDERAL ELECTION COMMISSION
                       WASHINGTON, D.C. 20463




 Office of Inspector General

 MEMORANDUM

 TO: 	          The Commission

 FROM: 	        Inspector General

 SUBJECT: 	 Audit of the Federal Election Commission's Fiscal Year 2004 Financial 

            Statements 


DATE: 	         December 16,2004

This letter transmits the final audit report of the Federal Election Commission's (FEC) fiscal year
(FY) 2004 financial statements. In accordance with the Accountability of Tax Dollars Act of
2002, the FEC prepared financial statements in accordance with Office of Management and
Budget (OMB) Bulletin No. 01-09, Form and Content of Agency Financial Statements, as
amended, and subjected them to audit.

The Chef Financial Officers Act of 1990 (Public Law 101-576, commonly referred to as the
"CFO Act"), as amended, requires the FEC Office of Inspector General (OIG), or an independent
external auditor as determined by the Inspector General, to audit the agency financial statements.
Under a contract monitored by the OIG, Clifton Gunderson LLP (CG-LLP), an independent
certified public accounting firm, performed the audit of the FEC's FY 2004 financial statements.

In the report dated December 8,2004, CG-LLP issued an unqualified opinion on the FEC's
financial statements. The OIG commends the FEC for the noteworthy accomplishment of
receiving an unqualified opinion, the first year the FEC was subject to the requirements of the
Accountability of Tax Dollars Act of 2002. Although the OIG recognizes this significant
accomplishment, it is important to recognize that a tremendous amount of effort by FEC
management, staff, and consultants was necessary to achieve the unqualified opinion. In
addition, the auditor report on internal control includes both reportable conditions and material
weaknesses, and numerous audit recommendations that must be addressed by management.
 Audit Process
 CG-LLP conducted the audit in accordance with auditing standards generally accepted in the
 United States of America; the standards applicable to financial audits contained in Government
 Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin
 No. 01-02, Audit Requirementsfor Federal Financial Statements, as amended. The results of the
 financial statement audit are detailed in three reports: report on compliance with laws and
 regulations; report on internal control; and the opinion on the financial statements.

 Report on Compliance with Laws and Regulations
 FEC management is responsible for complying with laws and regulations applicable to the
 agency. To obtain reasonable assurance about whether FEC's financial statements are fi-ee of
 material misstatements, CG-LLP performed tests of compliance with certain provisions of laws
 and regulations, non-compliance with which could have a direct and material effect on the
 determination of financial statement amounts, and certain laws and regulations specified in OMB
 Bulletin No. 01-02, such as the Anti-Deficiency Act and the Prompt Payment Act.

The results of CG-LLP's tests of compliance with laws and regulations described in the audit
report disclosed no instances of noncompliance with the laws and regulations that are required to
be reported under Government Auditing Standards and OMB Bulletin No. 01-02.

Report on Internal Control
CG-LLP's planning and performance of the audit included consideration of the FEC's internal
control over financial reporting. The CG-LLP auditors obtained an understanding of the FEC's
internal control; determined whether internal controls had been placed in operation; assessed
control risk; and performed tests of controls in order to determine auditing procedures for the
purpose of expressing an opinion on the financial statements. The auditors limited their internal
control testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 01-02 and consequently CG-LLP did not provide an opinion on internal control.

Internal control as it relates to the financial statements, is a process, affected by agency's
management and other personnel, designed to provide reasonable assurance of the following:
(1) transactions are properly recorded, processed, and summarized to permit preparation of the
financial statements and assets are safeguarded against loss fi-om unauthorized acquisition, use or
disposition; (2) transactions are executed in accordance with laws governing the use of budget
authority and other laws and regulations that could have a direct and material effect on the
financial statements and other laws and regulations identified by OMB; and (3) transactions and
other data that support reported performance measures are properly recorded, processed, and
summarized to permit the preparation of performance information in accordance with criteria
stated by management.
 In performing the testing of internal control necessary to achieve the objectives in OMB Bulletin
 No. 01-02, the auditors identified matters relating to significantdeficiencies in the design or
 operation of FEC's internal control. The testing of internal control identified both reportable
 conditions and material weaknesses. The American Institute of Certified Public Accountants
 (AICPA) categorizes reportable conditions as matters relating to significant deficiencies in the
 design or operation of the internal control, which in the judgment of the auditor, could adversely
 affect the agency's ability to record, process, summarize,and report financial data consistent
 with the assertions by management in the financial statements. Material weaknesses are
 reportable conditions in which the design or operation of one or more of the internal control
 components does not reduce to a relatively low level the risk that misstatements in amounts that
 would be material in relation to the financial statements being audited may occur and not be
 detected within a timely period by employees in the normal course of performing their assigned
 functions.

CG-LLP identified material weaknesses in the areas of:

        Financial Reporting
        Information Technology

CG-LLP identified reportable conditions, not considered to be material weaknesses, which
include the following:

        Cost Accounting System and Processes
        General Property and Equipment
        Payroll

Opinion on the Financial Statements
CG-LLP audited the balance sheet of the FEC as of September 30,2004, and the related
statements of net cost, changes in net position, budgetary resources, financing, and custodial
activity for the year then ended. In the report dated December 8,2004, CG-LLP issued an
unqualified opinion on the FEC 's financial statements.

The audit included an examination, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. The audit also included assessing the accounting
principles used and significant estimates made by management, as well as evaluating the overall
principal statements' presentation.

Audit Follow-up
The report on internal control contains numerous recommendations to address weaknesses found
by the auditors. Management was provided a draft copy of the audit report for comment and
CG-LLP reviewed management's comments. Although CG-LLP stands by the report and the
weaknesses detailed, the OIG and CG-LLP intend to work with management through the follow-
up and audit process to ensure the weaknesses are addressed satisfactorily. In accordance with
OMB Circular No. A-50, Audit Followup, revised, and based on an agreement with the Offices
of the Staff Director and General Counsel, the Staff Director or designee shall develop an action
plan for corrective action of the recommendations. The action plan is to set forth specific action
planned to implement the recommendations and the schedule for implementation.

OIG Evaluation of Clifton Gunderson LLP's Audit Performance
In connection with the OIG's contract with CG-LLP, the OIG reviewed CG-LLP's reports and
related documentation and inquired of its representatives. Specifically, we performed the
following: (1) reviewed CG-LLP's approach and planning of the audit; (2) evaluated the
qualifications and independence of the auditors; (3) monitored the work of the auditors
throughout the audit; (4) examined audit documents and audit reports to ensure compliance with
Government Auditing Standards and OMB Bulletin No. 0 1-02; and (5) performed other
procedures we deemed necessary.

The OIG's review of CG-LLP's work, as differentiated fkom an audit in accordance with
Government Auditing Standards issued by the Comptroller General of the United States, was not
intended to enable us to express an opinion on the FEC's financial statements; provide
conclusions about the effectiveness of internal control; or reach conclusions on whether FEC's
management substantially complied with laws and regulations related to the audit. CG-LLP is
responsible for the opinion and conclusions reached in the attached reports dated December 8,
2004. The OIG review disclosed no instances where CG-LLP did not comply, in all material
respects, with Government Auditing Standards.

If you should have any questions, please contact my office on (202) 694-1015. We appreciate
the courtesies and cooperation extended to Clifton Gunderson LLP and the OIG staff during the
conduct of the audit.



                                            ~ y k nA
                                                   e . McFarland
                                            Inspector General

Attachments

Cc:   Staff Director
      Acting Chief Financial Officer
      Accounting Officer
      Information Technology Director
      Deputy Staff Director for Audit and Review
                                     Table of Contents


Transmittal Memorandum


Independent Auditor's Report        ....................................................................... 1 

Independent Auditor's Report on Internal Control               .............................................3 

Independent Auditor's Report on Compliance with Laws and Regulations                       .................... 19 

Management's Comments to the Independent Auditor's Reports                       ......................... 20 

                               tiE#Lm
LL* 

                               Certified Wit Accountanb & ~ u l t a n t s




                                                                 Independent Auditor's Report


                      To the Inspector General of the
                       Federal Election Commission


                      We have audited the balance sheet of the Federal Election Commission (FEC) as of
                      September 30,2004, and the related statements of net cost, changes in net position, budgetary
                      resources, financing, and custodial activity for the year then ended. These financial statements
                      are the responsibilityof FEC's management. Our responsibilityis to express an opinion on these
                      financial statementsbased on our audit.

                      We conducted our audit in accordance with auditing standards generally accepted in the United
                      States of America; the standards applicable to financial audits contained in GovernmentAuditing
                      ~tandards,issued by the Comptroller General of the United States; and Office of Management
                      and Budget (OMB) Bulletin No. 01-02, Audit Requirementsfor Federal FinancialStatements, as
                      amended Those standards require that we plan and perform the audit to obtain reasonable
                      assurance about whether the financial statements are free of material misstatement. An audit
                      includes examining, on a test basis, evidence supporting the amounts and disclosures in the
                      financial statements. An audit also includes assessing the accounting principles used and
                      significant estimates made by management, as well as evaluating the overall principal
                      statements' presentation. We believe our audit provides a reasonable basis for our opinion.

                      In our opinion, the financial statements referred to in the first paragraph present fairly, in all
                      material respects, the financial position of FEC as of September 30, 2004, and its net cost,
                      changes in net position, custodial activity, budgetary resources and reconciliation of net cost to
                      budgetary obligationsfor the year then ended in conformity with accountingprinciples generally
                      accepted in the United States of America.

                     In accordance with Government Auditing Standards, we have also issued our reports dated
                     December 8,2004 on our considerationof FEC's internal control over financialreporting, and on
                     our tests of FEC's compliance with certain provisions of laws and regulations. The purpose of
                     those reports is to describe the scope of our testing of internal control over financial reporting
                     and compliance and the results of that testing, and not to provide an opinion on the internal
                     control over financial reporting or on compliance. Those reports are an integral part of our audit
                     performed in accordance with Government Auditing Standards and should be considered in
                     assessing the results of our audit.




                                                                  ,                  1 of2
                                                                            Offices in 15 states and Washington, DC




Independent Auditor's Report                                                                                          Page 1
                      Our audit was conducted for the purpose of forming an opinion on the basic financial statements
                      taken as a whole. The Management Discussion and Analysis and Required Supplementary
                      Information are not a required part of the basic linancial statements, but are supplementary
                      information required by OMB Bulletin No. 01-09, Form and Content of Agency Financial
                      Statements. We have applied certain limited procedures to such information, which consisted
                      principally of inquiries of FEC management regarding the methods of measurement and
                      presentation of the supplementary information. However, we did not audit the information and
                      express no opinion on it.



                      Calverton, Maryland
                      December 8,2004




Independent Auditor's Report                                                                                 Page 2
                                            Independent Auditor's Report on Internal Control

                      To the Inspector General of the
                       Federal Election Commission

                      We have audited the financial statements of the Federal Election Commission (FEC) as of and
                      for the year ended September 30,2004, and have issued our report dated December 8,2004. We
                      conducted our audit in accordance with auditing standards generally accepted in the United
                      States of America; the standards applicable to financial audits contained in GovernmentAuditing
                      Standards, issued by the Comptroller General of the United States; and Ofice of Management
                      and Budget (OMB)Bulletin No. 01-02, Audit Requirementsfor Federal Financial Statements, as
                      amended.

                      In planning and performing our audit, we considered FEC's internal control over financial
                      reporting by obtaining an understanding of FEC's internal control; determined whether internal
                      controls had been placed in operation; assessed control risk; and performed tests of controls in
                      order to determine our auditing procedures for the purpose of expressing our opinion on the
                      financial statements. We limited our internal control testing to those controls necessary to
                      achieve the objectives described in OMB Bulletin No. 01-02. We did not test all intemal
                      controls relevant to operating objectives as broadly defined by the Federal Managers' Financial
                      Integrity Act (FMFIA) (31 U.S.C. 3512), such as those controls relevant to ensuring efficient
                      operations. The objective of our audit was not to provide assurance on internal control.
                      Consequently, we do not provide an opinion on internal control.

                      Our consideration of the intemal control over financial reporting would not necessarily disclose
                      all matters in the internal control over fmancial reporting that might be reportable conditions.
                      Under standards issued by the American Institute of Certified Public Accountants, reportable
                      conditions are matters coming to our attention relating to significant deficiencies in the design or
                      operation of the internal control that, in ourjudgment, could adversely affect the agency's ability
                      to record, process, summarize, and report financial data consistent with the assertions by
                      management in the h c i a l statements. Material weaknesses are reportable conditions in which
                      the design or operation of one or more of the internal control components does not reduce to a
                      relatively low level the risk that misstatements in amounts that would be material in relation to
                      the financial statements being audited may occur and not be detected within a timely period by
                      employees in the normal course of performing their assigned functions. Because of inherent
                      limitations in internal controls, misstatements, losses, or noncompliance may nevertheless occur
                      and not be detected. However, we noted certain matters discussed in the following paragraphs
                      involving the internal control and its operation that we consider to be reportable conditions and
                      material weaknesses.




                                                                      1 of 16
                                                             Offices in 15 states and Washington, DC




Independent Auditor's Report on Internal Control                                                                  Page 3
                      Finally, with respect to intend control related to performance measures reported in FEC's
                      Performance and Accountability Report, we obtained an understanding of the design of
                      significant internal controls relating to the existence and completeness assertions, as required by
                      OMB Bulletin No. 01-02, as amended. Our procedures were not designed to provide assurance
                      on internal control over reported performance measures, and, accordingly, we do not provide an
                      opinion on such controls.




                      I.     Financial Reporting

                             The Accountabilityof Tax Dollars Act of 2002 extends to FEC a requirement to prepare
                             and submit to the Congress and the Director of the OMB an audited financial statement.
                             Fiscal year 2004 is the first year FEC is preparing and submitting audited financial
                             statements.

                             FEC has attained a major achievement by having its financial statements audited for the
                             first time. FEC, however, had to expend a tremendous amount of effort to "cleanup" its
                             accounting records in order to prepare auditable financial statements as of and for the
                             year ended September 30,2004.

                             The weaknesses identified below collectively resulted in a material weakness in FEC's
                             financial reportingprocess.

                             A. Financial Statement Preparation

                                Our audit of the interim financial statements disclosed several misstatements andlor
                                misclassifications resulting fiom ineffective or lack of adequate quality and
                                supervisoryreviews and internal controls over the financial statement preparation and
                                reporting process. These errors or omissions, some illustrated below, have consumed
                                significant FEC resources in researching and correcting. The resources expended
                                could have been devoted to the normal dailybusiness operations of FEC.

                                    FEC downloads the trial balance from the general ledger (GL) system to a
                                    qmadsheet to generate its financial statements. The unadjusted trial balance used
                                    in preparing the March 31,2004 financial statements did not agree to the balances
                                    in the GL system for most of its financial statement line items such as fund
                                    balance with treasury (FBWT), accounts payable (AP), net position and related
                                    w u n t s . Accordingly, the financial statements submitted to OMB did not have
                                    the correct balances because the errors were identified by both the FEC and the
                                    auditors only after the financial statementswere submitted.
                                    The March 31,2004 financial statements did not properly report the appropriation
                                    received and the status of budgetary resources.




Independent Auditor's Report on Internal Control                                                                 Page 4
                                     Software-in-development was not reported in the interim financial statements 

                                     because FEC was still compiling the data. 

                                     Certain on-top financial statement adjustments were posted incorrectly and key 

                                     account relationshipsdid not always agree. 

                                     The interim financial statements did not reflect the current accounting activities 

                                     for certain areas and only partially met the guidance in OMB Bulletin 01-09, 

                                     Form and Content of Agency Financial Statements.

                                  In addition, "catch-up" journal vouchers and significant past activities detected during
                                  this "clean-up" process were recorded for the first time as adjustingjournal entries or
                                  "on-top" financial statement adjustments.

                                 Moreover, OMB Bulletin No. 01-09, Form and Content of Agency Financial
                                 Statements, states that preparation of the annual financial statements is the
                                 responsibility of the agency's management. In canying out this responsibility, each
                                 agency chief financial officer should prepare a policy bulletin or guidance
                                 memorandum that guides the agency's fiscal and management personnel in the
                                 preparation of the annual financial statements. FEC does not have formal plans,
                                 methodology, or procedures to guide the financial statement preparation and reporting
                                 process.

                                 Two of the five standards for internal control as stated in the Government
                                 Accountability Office (GAO) St&&        for Internal Control in the Federal
                                 Government are (1) information and communications, and (2) control activities.

                                 (1) 	 Information should be recorded and communicated to management and others
                                       within the entity who need it and in a form and within a timeframe that enables
                                       them to carry out their internal control and other responsibilities.

                                 (2) 	 Examples of control activities are: Reviews by management at the functional or
                                       activity level, proper execution of transactions and events, and accurate and
                                       timely recording of transactions and events.

                              B. Timely Recording, Reconcllation and Analysis

                                 A major objective of internal control is to ensure the integrity of the underlying
                                 accounting data supporting the linancial statements. An important control in this
                                 regard is the reconciliation of accounting records. An adequate reconciliation,
                                 provides the assurancethat processed transactiom are properly and timely recorded in
                                 the accounting records and financial statements, which then allows management the
                                 ability to analyze its financialcondition and results of operations on a routine basis.

                                 The FEC has not performed many of the periodic account reconciliations and
                                 analyses necessary during the year. Account reconciliations not performed included
                                 certain FBWT reports from the Department of Treasury, budgetary accounts such as




Independent Auditor's Report on Internal Control 	                                                                Page 5
                                 obligations, intragovernmental activities, and general property and equipment, among
                                 others. In addition, reconciliations that were performed were often not completed in a
                                 timely manner and certain account reconciliations contained reconciling items that
                                 have long been outstanding. Moreover, certain assets, such as software-in­
                                 development, were not reported in the interim financial statements because FEC was
                                 still compiling the data.

                                 Furthermore, due to FECYsdelay in submitting the June 30, 2004 accounting data in
                                 the Treasury's Federal Agencies' Centralized Trial-Balance System (FACTS II), FEC
                                 was prevented by the system to submit the data. Thus, FEC did not submit its June
                                 30, 2004 accounting data. The accounting data includes mostly budgetary
                                 information that is required for the Report on Budget Execution and Budgetary
                                 Resources (SF 133), and the Year-End Closing Statement @MS 2108).

                              C. GL System Setup and Posting Model Definitions

                                 The GL system setup and posting model definitions do not fully comply with the
                                 transactions posting models consistent with the United States Standard General
                                 Ledger (USSGL) guidance and policies when recording and classifying certain
                                 transactions. As a result, certain proprietary accounts and budgetary accounts do not
                                 agree, and certain trial balance accounts do not trace to the USSGL crosswalk.

                                 FEC is aware of the inherent limitations of the GL system and has attempted to
                                 upgrade the GL system during fiscal year 2004 to correct weaknesses identified.
                                 However, due to the enormous resources consumed in testing and monitoring the
                                 system upgrade and the problems arising h m the upgrade process and the audit of
                                 the financial statements, FEC has decided to postpone its upgrade until fiscal year
                                 2005.

                             D. Integrated Financial Management System

                                 A single, integrated financial management system is a unified set of financial systems
                                 linked together electronically in an efficient and effective manner to provide agency-
                                 wide financial system support. Integration means that the user is able to have one
                                 view into systems such that, at whatever level the individual is using the system, he or
                                 she can obtain needed information efficiently and effectively through electronic
                                 means. It does not necessarily mean having only one software application covering
                                 all financial management system needs within an agency. Interfaces are acceptable as
                                 long as the supporting details are maintained and accessible to managers. Interface
                                 linkages must be electronic unless the number of transactions is so small that it is not
                                 cost beneficial to automate the interface. Easy reconciliation between systems, where
                                 interface linkages are appropriate, must be maintained to ensure data accuracy.




Independent Auditor's Report on Internal Control                                                                 Page 6
                                 FEC does not have an integrated financial management system. Significant financial
                                 management systems such as the "cost system" and the property and equipment
                                 system are not interfaced with the GL system.

                             Recommendations:

                              1. 	 Establish written policy and procedures to formalize plans, methods and procedures
                                   to guide the financial statement preparation and reporting process.

                             2. 	 Prepare and analyze monthly reconciliations of subsidiary and summary account
                                  balances. Consider a "formal closing" of all accounts at an interim &te(s), which
                                  will reduce the level of accounting activity and analysis required at year-end. This
                                  "formal closing" entails ensuring that all transactions are recorded in the proper
                                  period through the month-end. With complete and timely transaction recording,
                                  analysis of all major accounts can be performed effectively.

                             3. 	 Ensure that supervisory reviews 	 are applied to the financial statements and its
                                  supporting documentation, and the reviews are documented.

                             4. 	 Ensure that upgrades to the financial management system comply with the posting
                                  model definitions in the USSGL.

                             5. 	 Evaluate the functional requirements to integrate the financial reporting, property and
                                  equipment and the cost systems with the GL system; assess the degree of integration
                                  necessary to have a single, unified financial management system.

                      11.    Information Technology (IT)
                             The reportable conditions below, when evaluated together, make the IT area a material
                             weakness.

                             A. 	Entity-Wide Security Program
                                 Effective information security management is critical to FEC's ability to ensure the
                                 reliability, availability, and confidentiality of its information assets, and thus its
                                 ability to perform its mission. If effective information security practices are not in
                                 place, FEC's data and systems are at risk of inadvertent or deliberate misuse, fraud,
                                 improper disclosure, or destruction-possibly without detection.

                                 GAO's research of public and private sector organizations, recognized as having
                                 strong information security programs, shows that their programs include (1)
                                 e s t a b l i s h a central focal point with appropriate resources, (2) continually assessing
                                 business risks, (3) implementing and maintaining policies and controls, (4) promoting
                                 awareness, and (5) monitoring and evaluating policy and control effectiveness. (U.S.
                                 Government Accountability Office, Executive Guide: Information Security




Independent Auditor'sReport on Internal Control 	                                                                     Page 7
                                 Management, Learning From Leading Organizations, GAOIAIMD-98-68
                                 [Washington, D.C.: May 1998]), and (GAO's Information Security Risk Assessment:
                                 Practices of Leading Organizations, A Supplement to GAO's May 1998 Executive
                                 Guide on Information Security Management, GAOIAIMD-00-33 [Washington, D.C.:
                                 November 19991).

                                 FEC has taken important steps to establish an effective information security program,
                                 but much remains to be done. In January 2004, FEC revised the Computer Security
                                 Officer position descriptionto fiuther strengthen the Commission's computer security
                                 program. In April 2004, FEC issued an Interim Final "Information System Security
                                 Program Policy", Policy Number 58A. Policy Number 58A was issued to "manage
                                 the risk to information rather than just systems". The FEC approved Policy Number
                                 58A and supplementsto Policy Number 58A in September2004.

                                 Current weaknesses that exist in the FEC's information security program include the
                                 following:

                                    FEC did not fhake its InformationSystem Security Policy until September
                                    2004. This policy was not fully implemented in fiscal year 2004;
                                    A h e w o r k of policies and standards to mitigate risks associated with the
                                    management of informationresources has not yet been implemented;
                                    Risk assessments, as part of FEC's overall strategy to mitigate risks associated
                                    with its informationtechnology environment, have not been conducted for more
                                    than three years. The FEC conducted a risk assessment in March of 2000, with
                                    several recommendations for strengtheningits informationtechnology
                                    environment. We noted that the FEC has not implemented many of the
                                    recommendations. Furthermore, the FEC has not updated its risk assessment
                                    since March of 2000 to ensure that its strategyto mitigate risk reflects changes in
                                    its informationtechnologyenvironment;
                                    There was no documented and approved entity-wide securityprogram plan. FEC
                                    has indicated that it is in the process of documentingits entity-wide security
                                    program plan. The FEC has just established in September2004 policy guidelines
                                    which it will use in the development and implementation of an entity-wide
                                    security program plan;
                                    The FEC completed the identificationof its major application and mission critical
                                    general support systems in September 2004, as part of its risk mitigation strategy.
                                    Thus,the FEC has not completed the development of security plans for these
                                    applicationsand systems;
                                    Major applications and mission critical general support systemshave not been
                                    certified to ensure that they are operating accordingto FEC's security
                                    requirements;
                                    A program for the continuous monitoring and evaluation of FEC's policy and
                                    controls to ensure operatingeffectiveness has not been established, and
                                    There is no periodic security awareness training. Training is only provided to
                                    new employees and contractors. The FEC did conduct a baseline awareness




Independent Auditor's Report on Internal Control                                                                Page 8
                                     training program, but does not have a process in place to provide security
                                     awareness training on an annual basis.
                              Recommendations:

                              6. 	 Implement a framework of policies and standards to mitigate risks associated with the
                                   information resources management.

                              7. 	 Conduct risk assessments at least every three years as part of an overall strategy to
                                   mitigate risks associated with its information technology environment.

                              8. 	 Complete the documentation, approval and implementation of an entity-wide security
                                   program plan.

                              9. 	 Develop, and implement security plans for major applications and mission critical
                                   general support systems as part of a risk mitigation strategy.

                              10. Certify that the major applications and mission critical general support systems are
                                  operating according to FEC's security requirements.

                              11. Establish a program for the continuous monitoring and evaluation of the computer
                                  security policy and control effectiveness.

                              12. Provide periodic computer security awareness training to all employees and
                                  contractors (i.e. contractors granted access to the FEC's network).

                              B. 	 Controls to Protect Information
                                 For a computerized organization like FEC, achieving an adequate level of information
                                 protection is highly dependent upon maintaining consistently effective access controls
                                 and system software controls. Access controls limit and monitor access to computer
                                 resources (i.e., data files, application programs, and computer-related facilities and
                                 equipment) to the extent necessary to provide reasonable assurance that these
                                 resources are protected against waste, loss, unauthorized modification, disclosure, or
                                 misappropriation. Access controls include 1ogicaVtechnical controls such as
                                 designing security software programs to prevent or detect unauthorized access to
                                 sensitive data. Similarly, system software controls limit and monitor access to
                                 pow& programs and sensitive files that control computer processing and secure the
                                 application and data supported by the system.

                                 Our limited testing of internal controls identified information protection related
                                 weaknesses in FEC's information systems environment. Impacted areas included the
                                 local area and wide area networks as well as its midrange computer systems (e.g.
                                 servers). These vulnerabilities expose FEC and its computer systems to risks of




Independent Auditor's Report on Internal Control 	                                                                Page 9
                                 external and internal intrusion, and subject sensitive information related to its major
                                 applicationsto potential unauthorized access, modification, andor disclosure.

                                 FEC has not assessed the risk of inadequate protection for its sensitive and mission
                                 critical files. No written criteria have been established to guide security personnel in
                                 monitoring and restricting access to production data and program files.

                                 Current weaknesses in access controls include the following:

                                     No documentationor verification that the vulnerabilitiesidentified in the February 

                                     2004 network penetration scan have been addressed; 

                                     Visitor (individuals that do not have approved daily access) logs for data center 

                                     access were not maintained and no compensating controls to monitor and record 

                                     visitor access to the data centerhave been implemented; 

                                     Password controls are weak: 

                                     o 	 There is no password lifetime set on the local area network (LAN);
                                     o 	 There are no technical controls to enforce password changes on the LAN and
                                         the GL system;
                                     o 	 Somepasswords on the FEC LAN have not been changed since 1997;
                                     o 	 The password policy cannot be updated or changed in the cwrent version of
                                         the GL system;
                                     o 	 The GL system passwords do not expire;
                                     o 	 There is no limitation on the number of GL system password attempts (i.e. no
                                         lock-out policy);
                                     o 	 There is no policy on the GL system composition of passwords; and
                                     o There are no controls on password length for the GL system.
                                     There are no records of access requests granted to remote users. The FEC was
                                     unable to provide access request approval documentation to support the access of
                                     all dial-up and Virtual Private Network (VPN)users that we sampled for our
                                     review. In addition, there was no evidence of periodic re-validations of these
                                     users;
                                     GL system access requests are not properly documented or reviewed. The FEC
                                     was only able to provide us ori@ access matrices for eight of the 33 current GL
                                     system users. Additionally, the FEC does not periodically perform revalidations
                                     of GL system access;
                                     The principle of "least privilege" is not consistently applied in the GL system
                                     application. A high level IT official has similar access rights and privileges in the
                                     GL system application as the Accounting Officer;
                                     Data center access is not adequatelydocumented or reviewed:
                                     o 	 Four employeeshave their names misspelled on the cardholder report;
                                     o 	 One of the individuals with access to the data center was terminated recently,
                                         but his access key is still active and the physical location of the key could not
                                         be d e t e e , and
                                     o 	 FEC could not identify one user who has access to the data center or justify
                                         why the individual has access to the data center.




Independent Auditor's Report on Internal Control 	                                                               Page 10
                                      The FEC is not in compliance with its auditing policy because it does not
                                      automatically log the network activity described in the Audit Event Standard,
                                      even though it has the capability to do so.

                              Recommendations:

                               13. Establish a program to document corrective actions and verify that weaknesses
                                   identified have been addressed. Ensure and document that recommendations from the
                                   most recent network security review .have been implemented.

                               14. Monitor and record visitor access to the &ta center.

                               15. Strengthen the password controls for the FEC's network and major applications,
                                   including the GL system.

                               16.Document and periodically revalidate VPN and dial-up access rights and privileges.

                               17.Document access requests and approvals for the 	GL system. Perform periodic
                                  revalidation of access granted to the GL system.

                               18. Ensure that the principle of "least privilege" is enforced. Ensure access in the GL
                                   system is granted according to job function and responsibility.

                               19. Disable the active access keys of users not requiring access to the data center.
                                   Correct the misspelled names on the cardholder report.

                              20. Use access request forms to document user access rights and periodically review the
                                  access for appropriateness.

                              21. Automatically log network activity as required by the Audit Events Standardr.

                              C. 	Contingency Plan

                                  Losing the capability to process and protect information maintained on FEC's
                                  computer systems can significantly impact FEC's ability to accomplish its mission to
                                  serve the public. The purpose of service continuity controls is to ensure that, when
                                  unexpected events occur, critical operations continue without interruption or are
                                  promptly resumed.

                                  To achieve this objective, FEC should have procedures in place to protect information
                                  resources and minimize the risk of unplanned interruptions and a plan to recover
                                  critical operations should interruptions occur. These plans should consider activities
                                  performed at FEC's general support facilities (e.g. FEC's LAN, wide area network
                                  (WAN),and telecommunications hilities), as well as the activities performed by
                                  users of specific applications. To determine whether the disaster recovery plans will




Independent Auditor's Report on Internal Control 	                                                                Page 11
                                  work as intended, FEC should establish and periodically test the capability to perform
                                  its functions in disaster simulationexercises.

                                  Our review of the service continuity controls identified deficiencies that could affect
                                  FEC's ability to respond to a disruption in business operations as a result of a disaster
                                  or other long-term emergency. The deficiencieswere as follows:

                                     FEC has not formally identified and prioritized all critical data and operations on
                                     its major applications and the resources needed to recover them if there is a major
                                     interruption or disaster. In addition, we could not determine whether FEC had
                                     established emergency processing priorities that will help manage disaster
                                     situations more effectively for the network,
                                     FEC does not have alternative processing sites for most of its operations in the
                                     event of a disaster, includingits general ledger system;
                                     The FEC Disclosure Database is replicated at an off-site location as a web-
                                     enabled read-only database the public can access. In the event that data cannot be
                                     updated at the FEC and then replicated at the off-site location, there is no
                                     operational mechanism to update the Disclosure Database replicated at the oBite
                                     location;
                                     FEC does not have adequate capacity for most of its back-up tapes in its fireproof
                                     safe; hence, back-up tapes are not kept in a fireproof safe. Back-up tapes,
                                     however, are rotated on a weekly basis to an off-site facility;
                                     FEC data center is fully exposed to a wet pipe sprinkler system, with no
                                     compensating controls to avert inadvertent water damage to critical hardware and
                                     magnetic media in the case of a malfunction or false alarm; and
                                     FEC has not developed and documented a comprehensive contingency of
                                     operationsplan of its data centers, networks and telecommunicationfacilities.
                              Recommendations:

                              22. Formally idenhfy and prioritize all critical data and operations on FEC's networks
                                  and the resources needed to recover them if there is a major interruption or disaster.
                                  Ensure that emergency processing priorities are established to assist in managing
                                  disaster situations more effectivelyfor the network.

                             23. Establish alternative processing sites for FEC's operations in the event of a disaster.

                             24. Establish operational mechanisms to update the Disclosure Database in the event the
                                 FEC database is unavailable to replicate the Disclosure Database resident at the
                                 offsite location.

                             25. Procure an additional fireproof safe(s) for back-up tapes.




Independent Auditor's Report on Internal Control                                                                  Page 12
                             26. Investigate and document options for compensating controls to avoid inadvertent
                                 water damage to critical hardware and magnetic media in the case of a malfunction or
                                 false alarm from the wet pipe sprinkler system.

                             27. Develop and document a comprehensive contingency of operations plan of FEC's
                                 data centers, networks and telecommunication facilities.

                             D. Software Development and Change Controls
                                 Establishingcontrols over the modification of application software programs helps to
                                 ensure that only authorized programs and authorized modifications are implemented.
                                 This is accomplished by instituting policies, procedures, and techniques that help
                                 make sure all programs and program modifications are properly authorized, tested,
                                 and approved and that access to and distribution of programs is carefully controlled.
                                 Without proper controls, there is a risk that security features could be inadvertentlyor
                                 deliberately omitted or "turned off' or that processing irregularities or malicious code
                                 could be introduced.

                                 Weaknesses that currently exist in the FECYscontrols over modification of
                                 applicationprograms include the following:

                                     System Development Life Cycle Methodology has not been f d i z e d and
                                     implemented;
                                     No written policy has been created to manage software libraries;
                                     Written p d u r e s to modify, test, approve or release software for any of its
                                     applications, includingthe GL system, have not been documented;
                                     Emergency change p d u r e s and procedures for installing patches are not
                                     documented; and
                                     Certain softwue code changes for the GL system were not reviewed before being
                                     implemented.

                             Recommendations:

                             28. Finalize and implement the System Development Life Cycle Methodology.

                             29. Create a written policy to manage software libraries.

                             30. Document written procedures to modify, test, approve or release software for any of
                                 its applications.

                             3 1. Document written emergencychange procedures for installing patches.

                             32. Establishpolicies and procedures to ensure that the s o k e code is reviewed prior to
                                 moving the modified code into production.




Independent Auditor's Report on Internal Control                                                                 Page 13
                       REPORTABLE CONDITIONS 


                       111.
   Cost Accounting System and Processes

                               A. Cost Allocation Methodology

                                  FEC does not have a cost accounting system that is integrated with the GL system.
                                  The current cost accounting system is not adequate to produce the cost data for the
                                  Statement of Next Cost (SNC) in an efficient manner. Accordingly, the cost data
                                  presented on the SNC is compiled from three systems' raw data, which is then
                                  gathered and analyzed in an elaborate, complex, and manually intensive spreadsheet.
                                  Raw data used in the allocation of costs, such as payroll, is sometimes based on
                                  estimates due to the timing of the availability of the data. Expenses on the budget
                                  execution report, another source of raw data, are not reconciled with the general
                                  ledger balances.

                                  FEC summarhes employee hours in a spreadsheet based on an office's program
                                  numbers, which is generated by a system. The program numbers represent the type of
                                  work performed by an employee and the hours are assigaed directly or allocated to
                                  FEC's three major programs. FEC could not provide crosswalk documentation or
                                  definitions supporting the basis of assignment or allocation. The data accumulation
                                  and analysis is performed by one person and not subjected to a second review.

                                  In addition, the FEC did not have a formal comprehensive policy and procedures for
                                  the program cost allocation. Although a written procedures document was provided
                                  to us, the document was written in response to our audit request and did not include a
                                  comprehensive set of procedures.

                                  The manually intensive and elaborate cost allocation process dictates the need for a
                                  formal comprehensive policy and procedures. Moreover, the heavy reliance on a
                                  single person to carry out this process could impair FEC's ability to generate a timely
                                  and accurate report when the person becomes unavailable.

                                  A control activity in the GAO Standarch for Internal Control in the Federal
                                  Government is appropriate documentation of transactions and internal control.
                                  Internal control and all transactions and other significant events need to be clearly
                                  documented, and the documentation should be readily available for examination. The
                                  docmentation should appear in management directives, administrative policies, or
                                  operating manuals. All documentation and m d s should be properly managed and
                                  maintained.



                               33. Establish formal and comprehensive cost allocation methodology and related policy
                                   and procedures.




Independent Auditor's Report on Internal Control                                                                 Page 14
                              34. Cross-train employees to minimize the risks of major interruptions in normal business
                                  operations.

                              35. Establish a review process wherein a person, other than the preparer, reviews the
                                  work performed to ensure accuracy and propriety.

                              B. Managerial Cost Accounting

                                 Statement of Federal Financial Standard No. 4, Managerial Cost Accounting
                                 Concepts and Standarkfor the Federal Government, requires reporting components
                                 to perform a minimum-level of cost accounting and provide basic information
                                 necessary to accomplish the many objectives associated with planning, decision-
                                 making, and reporting. This minimum-level of cost accounting includes, among
                                 others: providing information for performance measurement; integrating both cost
                                 accounting and general k c i a l accounting by using the USSGL; providing useful
                                 information; and accommodating management's special cost information needs or
                                 any other needs that may arise due to unusual or special situations or circumstances.
                                 The present FEC cost accounting system does not provide the minimum-level
                                 identified above.

                                 FEC management notified us that it is in the process of developing a new cost
                                 accounting system.



                              36. Evaluate the functional requirements for the new cost accounting system to ensure
                                  that at least, the minimum level of cost accounting required in SFFAS No. 4 is
                                  attained.

                       IV.    General Property and Equipment (Property)

                              FEC's accounting for property involves a time-consumingeffort that increases the risk of
                              errors due to its process of expensing its property at the time of acquisition and preparing
                              a journal voucher to reclassify the expense to an asset for reporting purposes.

                              Our audit disclosed deficiencies, mors or omissions that questioned the effectiveness of
                              FEC's internal control on property. Some examples are noted below:

                                 Depreciation expense and accumulated depreciation reported on the depreciation
                                 report were not correct. We were informed that although the property management
                                 system calculates depreciation correctly, when the data is converted into another
                                 system to generate the depreciation report, the calculation gets corrupted. This error
                                 was identified during the audit and was subsequently adjusted.
                                 Software-indevelopment was not adequately tracked and was not reported until the
                                 September 30, 2004 financial statements. There was one instance of software-in-




Independent Auditor's Report on Internal Control                                                                  Page 15
                                development being reported as completed software in the property management
                                system; therefore, the asset was being improperly depreciated. Another instance was
                                completed software that was not recorded. These errors were only identified during
                                the audit process.
                                Several assets were recorded using the purchase order amount, instead of the actual
                                cost.
                                For the 45 sample items we tested, we noted that 45 receiving reports were not
                                completed properly, that is, they were either not signed, did not have the date of
                                receipt, did not have a description of the goods or services received, or lacked a
                                reference to the invoice to be paid. Although only 6 of the 45 items pertained to
                                acquisitionsin fiscal year 2004, this deficiency persisted throughout fiscal year 2004.

                             One of the five standards for internal control in GAO Standards for Internal Control in
                             the Federal Government is control activities. Control activities occur at all levels and
                             functions of the entity. They include a wide range of diverse activities such as approvals,
                             authorizations, verifications, reconciliations, performance reviews, maintenance of
                             security, and the creation and maintenance of related records, which provide evidence of
                             execution of these activitiesas well as appropriate documentation.

                             Recommendations:

                             37. Enforce current procedures to require documentation of approvals and certifications
                                 for procurement and disbursementstransactions.

                             38. Formally communicate to all appropriate personnel to ensure compliance and
                                 consistent application of the policies and procedures.

                      V.     Payroll
                             We identified the following weaknesses related to the 45 items tested for payroll:

                                Twelve employees' leave andlor credit hour balances reported on the time &
                                attendance (T&A) reports did not agree with comparable data on the Statement of
                                Earnings and Leave fimn the payroll serviceprovider;
                                FEC's policy requires timekeepers to perform a monthly reconciliation between the
                                leave balances in FEC's records and the payroll service provider. The timekeepers
                                are to f m a r d leave balance certifications to the finance office indicating whether
                                balances agree or disagree. Nine leave balance certification forms were either not
                                completed or not submitted by the timekeepers to the finance office;
                                Forty one documents supporting payroll activities such as requests for leave,
                                approved absence forms, and certain payroll deduction elections forms were not
                                available for review; and
                                Changes made to some T&A reports were not authorized or properly authorized. In
                                addition, the T&A reports of two employees were already approved by the certifying
                                officer even though the pay period has not yet ended.




Independent Auditois Report on Internal Control                                                                   Page 16
                               OMB Circular A- 123, Management Accountability and Control (Revised June 2 1, 1999,
                               requires that "the documentation for transactions, management controls and other
                               significant events must be clear and readily available for examination." GAO Standardr
                              for Internal Control in the Federal Government states that transactions and other
                               significant events should be authorized and executed only by persons acting within the
                               scope of their authority. This is the principal means of assuring that only valid
                              transactions to exchange, transfer, use or commit resources and other events are initiated
                               or entered into."

                              Recommendations:

                              39. Implement procedures to ensure that payroll deduction elections are authorized by
                                  maintaining adequate supporting documentation or an ability to query the service
                                  provider systems to verify these deductions if initiated by an employee without the
                                  FEC's intervention. Consider traininghe-training payroll employees on the proper
                                  procedures for obtaining and retaining support documents for payroll elections.

                              40. Ensure that timekeepers perform a monthly reconciliation of leave balances reported
                                  in its records and the service provider records and submit the leave balance
                                  certification to the finance office monthly.

                              41. Implement procedures for ensuring hours recorded on the T&A reports are properly
                                  supported and authorized. Consider further automating payroll processing to
                                  decrease the risk of errors.

                              42. Implement procedures for ensuring all payroll and personnel documents are properly
                                  completed and authorized before payroll data is transmitted to the payroll service
                                  provider for processing.

                       OTHER MATTERS

                       Federal Managers' f i a n c i a l Integrity Act (31 U.S.C. 3512) (Integrity Act) Compliance and
                       Reporting

                       OMB Circular No. A-123 provides the reporting guidance for the Integrity Act. OMB Circular
                       A-123 states that annually, by December 31, the head of each executive agency submit to the
                       President and the Congress (i) a statement on whether there is reasonable assurance that the
                       agency's controls are achieving their intended objectives; (ii) a report on material weaknesses in
                       the agency's controls, and (iii) whether the agency's financial management systems conform with
                       government-wide requirements.

                       OMB Bulletin No. 01-02 requires that we compare the material weaknesses in the agency's
                       controls and material non-conformances on the agency's financial management systems in the
                       FEC's Integrity Act report to our report on internal control dated December 8,2004. Since the




Independent Auditor's Report on Internal Control                                                                 Page 17
                      Integrity Act report is due by December 31, 2004, FEC has not started and does not intend to
                      start the process of accumulating the information required for its report until November 2004.
                      Accordingly, since the Integrity Act report has not been completed, the comparison of reports
                      could not be performed.



                      In addition to the material weaknesses and reportable conditions described above, we noted
                      certain matters involving internal control and its operation that we reported to the management of
                      FEC in a separate letter dated December 8,2004.

                      This report is intended solely for the information and use of the management of FEC, FEC
                      Office of Inspector General, OMB, and Congress, and is not intended to be and should not be
                      used by anyone other than these specified parties.



                      Calverton, Maryland
                      December 8,2004




Independent Auditor's Report on Internal Control                                                                Page 18
                                  IndependemtAudttor'r Report on Compliancewlth Law8 and Rejplatlons
                          To the hpector General of the
                           Federal Blactio~lCommiseion

                          We have audittd the handal atatemarts of tha Fadaal Bloction Co-n 0as of and 

                          for the year cded S q t a h r 30, 2004, Md have issued w rapopt therwrn dated 

                          Deccmk8,2004. W e ~ o u r a u d i t m ~ w i t h ~ ~ g s n
                          ~iatbeunitodStatarrof~tho~r~~~IstofZnrncialaudits~
                          inOovamaJAudw-,Mbytha-baeaarlofthaUllitbdStBfd8;                         aud
                          Office of h4anaganaUand Budget (OMB)Bull& No. 01-02, A& -jGr          Federal
                          Financial ,Y&kmm&, rs amadad

                          Tbe         of FEC ismpaqiile fbrfiorlying with laws mdmguhthe applicable to
                          FEC. h p u t o f ~ ~ l e ~ J b o s l t w h t b a F B C ' a ~ ~ r r e
                          fisaofmakri.1~we~~oficlloompliaucewith~~onsof
                          lswsmd1.agulaliorte,~~withwhfchoaaldhaverdiractmdd~on&le
                         ~ o n o f ~ r t r t s m c o t ~ d a r c l i n ~ l a w s r m d ~ c m s ~ e d
                         OMBBullctinNo.01-02. Welimbdaattssteofcanplianceto~pravisiansandwedidnot
                         test compliance with all lam.and mgdationa appliuble to PEC.
                         The results of our tests of c o m p b with lawn andmgulati- descriiin(hapraosding
                         paragraph d b h p d no instmca o f ' n o n c o m p b with thc laws and ~ 0 0 &at8 are
                         nquhdto be raportedundaGownmewA d - -                      and OMB Bullelin No. 01-02.
                         Providing an opinion on compliance with catain pmvishs of laws and regulations was not an
                         objective of our audit,and a c a d @ y , we do not e x p a such an opinion.




J   Independent Auditoia Report on Compliance with Lawa and Fbgulationa                                     Page 19
                                          FEDERAL ELECTION COMMISSION 	                                December 14,2004
                                          WASHINGTON, D.C. 20463




                   MEMORANDUM 

                   To: 	          Lynne A. McFarland
                                  G e c t o r General

                   From: 	        John C. O'Brien     Y
                                  Acting Deputy Staff Director for Management 

                                  Acting CFO 

                                                           A

                   Through: 	     James A.
                                  Staff Director

                   SUBJECT: 	 Comments on Draft Reports on Compliance with Laws and Regulations
                              and Internal Control

                          Attached are FEC Management's responses to and comments on the draft reports on
                   compliance with laws and regulations and internal control. The FEC is pleased to find that the review
                   conducted by the independent public accounting firm of Clifton Gunderson LLP (CG), under the
                   auspices of the FEC's Office of Inspector General, rendered an unqualified opinion of the FEC's FY
                   2004 Financial Reports. We also note that the FEC's financial statements are fairly presented. This is
                   a noteworthy achievement for a first year audit.

                          We are also pleased to find that the FEC was not in violation of any law or regulation to which
                   the FEC was subject. We are working within the attached responses to eliminate or at least reduce the
                   number andlor scope of reportable conditions and the potential for any material weaknesses. The
                   FEC's goal is to receive an unqualified opinion with no material weaknesses or reportable conditions
                   each year.

                          It is important to FEC Management that the audit of the FEC's financial statements as of and
                  for the year ended September 30,2004 indicated that the FEC financial systems are in general
                  accordance with auditing standards generally accepted in the United States of America; the standards
                  applicable to financial audits contained in GovernmentAuditing Standards, issued by the Comptroller
                  General of the United States; and Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
                  Requirementsfor Federal Financial Statements, as amended.

                          Thank you for the opportunity extended by you, your staff and CG to respond to the draft audit
                  report. Everyone involved in the audit process worked extremely hard to ensure a successll
                  conclusion to the audit. The FEC views the unqualified opinion as a success although it required an
                  extensive commitment of staff and contract resources, and a large amount of staff time that could have
                  been committed to other activities and on-going operations.




Management's Comments to the Independent Auditor's Reports 	                                                    Page 20
                          We will use CG's report as an opportunity to continue to improve the FEC's financial
                  management systems, policies and procedures. The FEC viewed a previous review several years ago of
                  the overall operations of the Commission by PricewaterhouseCoopers (PwC) in a similar fashion and
                  used the results of their review to improve and enhance FEC programs where appropriate. The FEC
                  takes such recommendations seriously and will study them to seek ways to implement appropriate
                  proposals to enable us to serve the public better and to more effectively and efficiently meet our
                  mission to administer and enforce the campaign finance disclosure laws.

                  Attachments




Management's Comments to the Independent Auditor's Reports                                                Page 2 1
                        MATERIAL WEAKNESSES

                        I. Financial Reporting

                        The Accountability of Tax Dollars Act of 2002 extends to FEC a requirement to prepare
                        and submit to the Congress and the Director of the OMB an audited financial statement.
                        Fiscal year 2004 is the first year FEC is preparing and submitting audited financial
                        statements. FEC has attained a major achievement by having its financial statements
                        audited for the first time. FEC, however, had to expend a tremendous amount of effort to
                        "cleanup" its accounting records in order to prepare auditable financial statements as of
                        and for the year ended September 30,2004.

                        The weaknesses identified below collectively resulted in a material weakness in FEC's
                        financial reporting process.

                        A. Financial Statement Preparation

                        Our audit of the interim financial statements disclosed several misstatements andlor
                        misclassifications resulting from ineffective or lack of adequate quality and supervisory
                        reviews and internal controls over the financial statement preparation and reporting
                        process. These errors or omissions, some illustrated below, have consumed significant
                        FEC resources in researching and correcting. The resources expended could have been
                        devoted to the normal daily business operations of FEC.

                        FEC Response: FEC acknowledges that there were misstatements in its March 3 1,2004
                        financial reports, but does not agree that the controls surrounding its quarterly and annual
                        financial statement preparation process is so ineffective to warrant the classification of
                        this frnding as a material weakness in FEC's financial reporting function. During the
                        audit, we have made significant improvements to our supervisory controls. Though we
                        are continuing to identi@ ways to improve further, we believe our current processes have
                        improved to the point that they are no longer a material weakness.

                                 Fiscal Year 2003 was the first year for which FEC was required to compile a full
                        set of financial statements to comply with the provisions of the Accountability of Tax
                        Dollars Act of 2002. Although FEC was waived fiom the requirement to submit such
                        statements to the Office of Management and Budget (OMB), it endeavored to conduct an
                        intemal evaluation of its fiscal year 2003 financial data and financial reporting risks to
                        ensure that its annual and qWerly financial statements were materially accurate.
                        Additionally, in fiscal year 2002, FEC replaced its accounting system and converted its
                        financial information from the "oldn system to the 'hew" accounting system. As part of
                        its internal evaluation, FEC sought to analyze and correct any inconsistencies resulting
                        from the data conversion, and identify and correct any misstatements andlor relationship
                        discrepancies related to its general ledger accounts.

                               The agency made great strides in its commitment to present a complete set of
                        financial statements, which not only appropriatelyreflect current year activities, but also




Management's Comments to the Independent Auditor's Reports                                                       Page 22
                        reflect accurate historical financial information. "Catch-up" journal vouchers and "on
                        top" adjustments to FEC's accounting records for fiscal year 2003 and the first and
                        second quarters of fiscal year 2004 were necessary to achieve its commitment. The
                        misstatement found in the March 31,2004 financial statements was due to human error.
                        However, FEC has since prepared accurate financial statements for the third and fourth
                        quarter of fiscal year 2004.

                                In light of FEC's implementation of compensating management controls (i.e.,
                        extensive data analysis to appropriately reflect account balances) and given that the error
                        found in the second quarter of the fiscal year 2004 financial statements was not a
                        persistent problem in FEC's financial statements compilation process, FEC does not
                        concur with this material weakness. FEC believes that process for the latter half of the
                        fiscal year was vastly improved (better controls) and the risk of misstatement to the
                        financial statements was effectively mitigated.

                               Improper reporting of the appropriation received and the status of budgetary
                        resources in the March 31,2004 statements was cited by the auditors. At the time the
                        appropriation received amount was recorded, FEC was under a Continuing Resolution.
                        FEC's efforts to solicit the guidance from OMB as to how the Appropriations should be
                        reported, given the Continuing Resolution, were unsuccessful, as information received
                        from OMB was not received timely (before the financials statements submission due
                        date).

                                FY 2004 was the first year FEC had to file quarterly financial statements with
                        OMB. Many agencies use spreadsheet models supplied by CPA firms to compile the
                        complex quarterly and annual statements. It is common to download ledger information
                        into these models. The minor error noted in a spreadsheet formula was caught and
                        corrected by FEC. Once the FY 2003 comtions were entered the June statements were
                        submitted on time and accurately. Since this is FEC's first audit, CG's audit plan was to
                        control the year end processing schedule. FEC will tailor this to its operations and
                        incorporate it into a formal schedule in N 2005.

                        B. Timely Recording, Reconciliation and Analysis

                        A major objective of internal control is to ensure the integrity of the underlying
                        accounting data supportingthe financial statements. An important control in this regard is
                        the reconciliation of accounting records. An adequate reconciliation provides the
                        assurance that processed transactions are properly and timely recorded in the ~ccounting
                        records and financial statements, which then allows management the ability to analyze its
                        financial condition and results of operations on a routine basis.

                        The FEC has not performed many of the periodic account reconciliations necessary
                        during the year. Account reconciliations not performed included certain FBWT reports
                        from the Department of Treasury, budgetary accounts, intragovemrnental activities, and
                        general property and equipment, among others. In addition, reconciliations that were
                        performed were often not completed in a timely manner and certain account




Management's Comments to the Independent Auditor's Reports                                                      Page 23
                         reconciliations contained reconciling items that have long been outstanding. Moreover,
                         certain assets, such as software-in-development, were not reported in the interim financial
                         statementsbecause FEC was still compiling the data.

                         Furthermore, due to FEC's delay in submitting the June 30,2004 accounting data in the
                         Treasury's Federal Agencies' Centralized Trial-Balance System (FACTS II), FEC was
                         prevented by the system to submit the data. Thus,FEC did not submit its June 30,2004
                         accounting data. The accounting data includes mostly budgetary information that is
                         required for the Report on Budget Execution and Budgetary Resources (SF 133), and the
                         Year-End Closing Statement (FMS 2108).


                        FEC Res~onse:EEC understands the critical role played by reconciliations in internal
                        control and acknowledges the lack of routine reconciliations during the first half of the
                        fiscal year. However, we do not concur with the classification of this finding as a material
                        weakness in FEC's financial reporting function. We have taken steps to implement an
                        appropriate reconciliation schedule in the future

                                As a result of its internal evaluation of the fiscal year 2003 financial data and
                        financial reporting process, FEC identified the need to acquire additional personnel
                        resources to assist with the preparation of periodic reconciliations, in order to mitigate the
                        risk of material misstatements to its financial statements. As such, FEC engaged
                        contractors who have expended considerable effort to bring reconciliations up to date in
                        fiscal year 2004. Though these reconciliations lagged for the first and second quarters of
                        fiscal year 2004, they were completed prior to the completion of the audit and have
                        revealed insignificant reconciling items on the Fund Balance with Treasury account. The
                        PPE reconciliation was performed on time and provided to the auditors.

                                Additionally, with assistance from contractors, FEC is currently performing
                        routine reconciliations of its subsidiary records to the general ledger balances and is
                        committed to this effort for fiscal year 2005. With respect to the submission of FEC's
                        financial information to Treasury, when FEC tried to log on to submit the June 30,2004
                        reports by the due date, the Treasury computer system was not operational. Since
                        Treasury did not extend the deadline to agencies for FACTS submissions, FEC's
                        accounting data was not submitted by the due date. All first, second and fourth quarter
                        reports were submitted to Treasury and OMB on time. To date, CG has had no
                        adjustments to the reports except minor reclassifications.

                              Finally, FEC concurs with the matters pertaining to the compilation of software-
                        indevelopment financial data. FEC has revised the data-gathering procedures and
                        methodology for accounting for software-indevelopment.

                        C. GL System Setup and Posting Model Definitions

                        The GL system setup and posting model definitions do not fully comply with the
                        transactions posting models consistent with the United States Standard General Ledger




Management's Comments to the Independent Auditor's Reports                                                        Page 24
                        (USSGL) guidance and policies when recording and classifying certain transactions. As a
                        result, certain proprietary accounts and budgetary accounts do not agree, and certain trial
                        balance accounts do not trace to the USSGL crosswalk.

                        FEC is aware of the inherent limitations of the GL system and has attempted to upgrade
                        the GL system during fiscal year 2004 to correct weaknesses identified. However, due to
                        the enormous resources consumed in testing and monitoring the system upgrade and the
                        problems arising from the upgrade process and the audit of the financial statements, FEC
                        has decided to postpone its upgrade until fiscal year
                        2005.

                        FEC Response: FEC does not concur with this finding as a material weakness.
                        According to generally accepted auditing standards (AU 319), "the auditor should obtain
                        sufficient lcnowledge of the entity's risk assessment process to understand how
                        management considers risks relevant to financial reporting objectives and decides about
                        actions to address those risks". FEC was fully aware of the posting model glitches and
                        adequately considered the risk of misstatements in the financial reports. As such, FEC
                        reengaged the implementer of the accounting system to upgrade the system and correct
                        posting model glitches. However, the upgrade was postponed to dedicate resources and
                        attention to the audit. FEC adequately compensated for the posting model glitches with
                        extensive reconciliations and analyses. Relationships between proprietary and budgetary
                        accounts were tested on a monthly basis and were provided to the auditors throughout the
                        audit. FEC expects the upgrade of its financial system to be completed in FY 2005 but
                        will continue the reconciliation of the accounts impacted by the posting model glitches.
                        The upgraded financial system will be fully compliant with the USSGL.

                        D. Integrated Financial Management System

                        A single, integrated financial management system is a unified set of financial systems
                        linked together electronically in an efficient and effective manner to provide agency-wide
                        financial system support. Integration means that the user is able to have one view into
                        systems such that, at whatever level the individual is using the system, he or she can
                        obtain needed information efficiently and effectively through electronic means. It does
                        not necessarily mean having only one software application covering all financial
                        management system needs within an agency. Interfaces are acceptable as long as the
                        supporting details are maintained and accessible to managers. Interface linkages must be
                        electronic unless the number of transactions is so small that it is not cost beneficial to
                        automate the interface. Easy reconciliation between systems, where interface linkages are
                        appropriate, must be maintained to ensure data accuracy.

                        FEC does not have an integrated financial management system. Significant financial
                        management systems such as the "cost system" and the property and equipment system
                        are not interfaced with the GL system.

                              FEC Res~onse:FEC does not concur with this finding as a material weakness.
                        The FEE made a decision based on acceptable risk and on a cost benefit basis that the




Management's Comments to the Independent Auditor's Reports                                                     Page 25
                        MIS,budget projection, and other performance reporting processes would be migrated
                        after other priority commission programs were migrated to the new environment. This
                        process is on-going: in FY 2004 and now in FY 2005 the FEC is engaged in a legacy
                        system off-load process to migrate legacy systems over to the new IT platform. In
                        addition, the FEC has been engaged since late FY 2003 in developing and implementing
                        a budget preparation and MIS system that will be totally integrated with the financial
                        system and all other oracle based IT systems.

                                The OMB guidance and GAO standards do not require agencies to have totally
                        integrated financial management systems with all other agency systems. OMB Directives
                        A-127 and A-123 and the GAO standards, as well as the CFO Act, were designed to
                        make agencies modernize, automate, and integrate outdated and disparate accounting
                        systems. In addition the goal was to make sure all agency accounting systems were
                        compliant with GAO standards and OMB directives. These initiatives do not require all
                        agency systems to be totally integrated--they must use the same information in preparing
                        performance and cost allocation reports and data. The FEC does this. The FEC budget
                        projection process uses the same pay information h m NFC as the accounting system
                        does, and both use the same HR infmation h m the FEC Personnel system. In that
                        regard, they are integrated.

                               The A-123 and A-127 Directives and the GAO standards provide for agencies to
                        make decisions on a cost-benefit basis with regard to management controls. The FEC
                        determined that limited funds and stafTresou~cesavailable for the FEC IT initiatives
                        mandated a priority for the main Disclosure database and other major disclosure and
                        compliance programs. In addition, funds were allocated to acquire a financial and
                        accounting system that was compliant with GAO standards and was JFMIP certified.
                        The migration of other systems such as the MIS,budget projection, and other
                        performance reporting processes to the new oracle based client server platform was given
                        a lower priority.

                                The FEC also made decisions not to acquire vendor produced COTS HR packages
                        due to costs and general reports h m other agencies about the performance of these
                        systems. A similar decision was made with regard to the procurement and propeaty
                        systems. The detennination was made to not incur additional costs until the Gnancial
                        system upgrade to a newer version was complded. At that time a determination would
                        be made on a cost benefits and potential risk analysis basis on whether it was worth the
                        costs to totally integrate the pramemat, property and financial systems. b n t l y the
                        FEC is comfortable with the acceptable risks with the two systems not totally integrated.



                        1. Establish written policy and procedures to formalize plans, methods and procedures to
                        guide the financial statement preparation and reporting process.

                        2. Prepare and analyze monthly reconciliations of subsidiary and summary account
                        balances. Consider a "formal closing" of all accounts at an interim date(s), which will




Management's Comments to the Independent Auditor's Reports                                                   Page 26
                        reduce the level of accounting activity and analysis required at year-end. This "formal
                        closing" entails ensuring that all transactions are recorded in the proper period through
                        the month-end. With complete and timely transaction recording, analysis of all major
                        accounts can be performed effectively.

                        3. Ensure that supervisory reviews are applied to the financial statements and its
                        supporting documentation, and the reviews are documented.

                        4. Ensure that upgrades to the financial management system comply with the posting
                        model definitions in the USSGL.

                        5. Evaluate the functional requirements to integrate the financial reporting, property and
                        equipment and the cost systems with the GL system; assess the degree of integration
                        necessary to have a single, unified financial management system.

                        FEC Response: Per the discussion above, the FEC will continue to evaluate the
                        acceptable risk levels and the costs and benefits of integrating the financial system with
                        the procurement and property systems; as noted the MIS and Budget systems are in the
                        process of being upgraded and enhanced, including integrating them fiuther with the FEC
                        NFC and accounting systems.

                               The FEC IT Strategic Plan provides for the future evaluation of the costs and
                        benefits of fbrther integrating the HR and other systems with the FEC financial system.
                        Decisions to proceed will be based on Commission priorities and available resourcesand
                        funds.

                                As noted in the Financial Reporting section a formal plan for monthly closing,
                        reconciliation review and statement analysis will be prepared in FY 2005. Finally, when
                        the financial system upgrade is complete the system will be USSGL compliant.

                        11. Information Technology (IT)

                        The reportable conditions below, when evaluated together, make the IT area a material
                        weakness.

                        FEC General Reswnse: The FEC does not agree that the reportable conditions in the
                        IT area reach the level of a material weakuess. In conjunction with the Financial
                        Statements Audit of the FEC, four areas of I n f o d o n Technology were examined for
                        material weaknesses. The outcome of the audit in I  T revealed a number of reportable
                        conditions, none of which, individually, rise to the level of material weakness. FEC
                        Management is also of the opinion that the collective '%eight" of these reportable
                        conditions does not together result in a material wealmess. The reason for this position is
                        that reportable conditions have been recognized and corrective actions have been and are
                        being taken. The cost benefits test may be used for portions of these conditions, but for
                        the majority the FEC has initiated corrective actions, some of which predate the audit.




Management's Commenta to the Independent Auditor's Reporta                                                      Page 27
                                 FEC Management has also indicated our position on the FEC exemption from the
                         Paperwork Reduction Act, which also exempts the FEC from many of the related and
                         underlying statutes and regulations. We agree that best practices and sound management
                         controls justify the use of some of the recommendationsmade during the audit in the area
                         of IT control (many of which the FEC as implemented already). However, the FEC
                         strongly believes that these recommendations, either singularly or collectively, do not rise
                         to the level of material weaknesses. In addition, the FEC maintains that the agency can
                         not be held to guidance and criteria identified in studies and analyses as if these were
                         standards that are required to be adhered to.

                                Finally, the FEC continues to maintain that it is not appropriate to find the
                         existence of financial management material weaknesses for systems and applications that
                         do not directly impact on the accuracy and security of information used in the FEC
                         financial statements.

                                 The audit for IT support of financial statements was broken down into four areas:
                         (1) Entity-wide Security Program, (2) Controls to Protect Information, (3) Contingency
                         Plan and (4) Software Development and Change Controls.

                         Entitv-wide Security P r o m :

                                It was noted in the draft report that the "FEC has taken important steps to
                        establish an effective information security program, but much remains to be done." The
                        references cited in the audit report, provide general guidance and are not audit standards.
                        The FEC, in strengtheningand building upon its security policy, has implemented the
                        level of security that is commensurate with the FEC mission, best practices, budget and
                        available resources. The resulting updated and modernized security program
                        demonstrates the FEC's commitment to information security and a continuing pursuit of a
                        balanced security program and costs to the agency.

                        Controls to Protect Information:

                                 The FEC has installed an automated key entry system to all sensitive areas, such
                        as the data center and hub rooms,in addition to the general building entry security
                        processes. The access to the general areas where data is stored are fkther protected via
                        password protection systems installed on each server and all personal computers. In an
                        effort to follow the NIST guidance and protect to the level required by overall agency
                        mission, the methodology employed by the FEC for physical security of the IT systems
                        and data is in keeping with GSA, GAO and NiST standards and best practices.

                        Contingency Plan:

                                The FEC has taken reasonable precautions in preserving data in the event of a
                        catastrophe. All FEC information and data is backed up daily, weekly and monthly and
                        stored at an off-site facility. The main disclosure data base is retained at an acceptable
                        level of redundancy in order to reproduce it in the event of catastrophe. Although the




Management's Comments to the Independent Auditor's Reports                                                       Page 28
                         FEC identified a potential budget request for FY 2006 of over $15 million to fully
                         replicate the FEC IT systemsand provide a staffed continuity of operationsback-up site,
                         there is no interest at either OMB or our oversight and appropriation committees for such
                         and expenditure. The existing spending and resulting level of risk in this area is at an
                         acceptablelevel, based on the costs benefits test.

                         Software Develo~mentand Change Controls:

                                The FEC has established a System Development Life Cycle Plan that reflects the
                        existing development environment of the FEC. That environment consists of purchased
                        applicationsoftware that is in compliancewith existing certifications, and set-up and
                        adapted for specific,particular FEC mission requirements. There is very little, if any,
                        homegrown software that is developed solely by FEC personnel at this time. The level of
                        controls over the modification and implementationof application systems are adequate
                        for the size and single location of the agency. The use of systemmodification logs has
                        been an effectivemethod of control, yet use of this methodologywas not acknowledged
                        in the report. The agency has established an IT Quality Assurance Office, in an effort to
                        incorporate the latest best practices in software application control.

                     A Entity-wide Security Program

                            FEC did not finalize its Information System Security Policy until September 2004.
                            This policy was not fully implemented in fiscal year 2004;

                        FEC Response: In November 1997, the FEC established Directive 58, outliningthe
                        Commissionpolicy on the control of commission software, and the use of agency
                        computers. This directive formed the basis of the agency's computer securityprogram.
                        This directive has been enhanced and expanded incorporating the latest guidance and best
                        practices provided by NIST in detail, and issued in policy 58A. The updating of
                        Directive 58 was begun in December 2001 with the establishment of an agency
                        Information Systems SecurityOfficer, and followed with the establishment of an interim
                        Information System Security Program Policy 58A dated April 2004. This interim policy
                        became final in September2004 as approved by the agency's Chief Technology Officer
                        (CTO).

                            A firamework of policies and standards to mitigate risks associated with the
                            management of information resources has not yet been implemented,

                        FEC Reswnse: As a vital component of the Information Systems Security Program
                        Policy (ISSPP) 58A, the FEC has developed and approved sub-policy 58-2.1 : Risk
                        Management policy. This policy establishes a fkimework of procedures and standardsto
                        mitigate risks associated with the management of information resources. The FEC is in
                        the early stages of implementing this new policy.

                            Risk assessments, as part of FEC's overall strategy to mitigate risks associated with
                            its information technology environment, have not been conducted for more than three




Management's Comments to the Independent Auditor's Reports                                                    Page 29
                            years. The FEC conducted a risk assessment in March of 2000, with several
                            recommendations for strengthening its information technology environment. We
                            noted that the FEC has not implemented many of the recommendations.Furthermore,
                            the FEC has not updated its risk assessment since March of 2000 to ensure that its
                            strategy to mitigate risk reflects changes in its information technology environment;

                        FEC Reswnse: The FEC Risk Management policy specifies a risk assessment of its
                        major applications and general supports systems every 3 years. The FEC has addressed
                        many of the recommendations outlined in the March 2000 risk assessment; greater detail
                        is required fiom the auditors as to which specific recommendations they believe have not
                        been met. The FEC has updated its risk assessment program by developing and
                        implementing 58A Infomation System Security Program Policy and 58-2.1 Risk
                        Management. A risk assessmentwas conducted February 24,2004 in the form of a
                        Security Audit, the purpose of which was to identify any vulnerabilities in the IT
                        infrastructure and to identifythe risks associated with those vulnerabilities.

                            There was no documented and approved entity-wide securityprogram plan. FEC has
                            indicated that it is in the process of documenting its entity-wide security program
                            plan. The FEC has just established in September 2004 policy guidelines which it will
                            use in the development and implementation of an entity-wide security program plan;

                        FEC Response: This issue is addressed in the response to the first bullet above.

                           The FEC completed the identification of its major application and mission critical
                           general support systems in September 2004, as part of its risk mitigation strategy.
                           Thus, the FEC has not completed the development of security plans for these
                           applicationsand systems;

                        FEC Response: The FEC identified its major applications,mission critical in May 2004.
                        The lone General Support System was identified in March 2000, when the development
                        of the securityplan was completed for that system. These documentshave been provided
                        to the audit team.

                           Major applications and mission critical general support systems have not been
                           certified to ensure that they are operating according to FEC's securityrequirements;

                        FEC Resnonee: The FEC has a policy that provides for the certification and
                        accreditationof major applications and mission critical systems. That policy is 58-2.4:
                        Certificationand AccreditationPolicy. The agency SecurityOfficer attended an
                        Accreditationand Certification workshop sponsored by MST in order to apply the NIST
                        guidelinesthat may be appropriateto the FEC, in June 2004.

                           A program for the continuousmonitoring and evaluationof FEC's policy and controls
                           to ensure operating effectivenesshas not been established, and




Management's Comments to the Independent Auditor's Reports                                                   Page 30
                         FEC Response: The FEC has established the position of Information Systems Security
                         Officer. This is a full-time management position, and as indicated in the position
                         description, has the responsibilityfor continuouslymonitoring the overall policies and
                         controls. This position description has been provided to the audit team.

                            There is no periodic security awareness training. Training is only provided to new
                            employees and contractors. The FEC did conduct a baseline awareness training
                            program, but does not have a process in place to provide security awareness training
                            on an annual basis.
                         FEC Response: The FEC has finalized and approved a SecurityAwareness training
                         policy which provides initial and ongoing training for all current and new employees, as
                         well as contractors. This training has been in place during the past year and-a-half. The
                         FEC has a securityawarenessprogram in place and documented, this documentation was
                         provided to the audit team. All new employeesand contractors undergo this training
                         upon anival at the FEC. Securityawareness is emphasized in all FEC training classes as
                         it pertains to the particular lesson being taught. Security awareness is re-enforced by the
                         help desk personnel as problems are reported, and each time a help mission is launched.
                         Informationconcerning virus protection, new viruses reported in trade journals and as
                         reported through our support contracts are disseminated on a regular basis by the FEC
                         security team, Help Desk personnel and trainers. Sincethe Security Awareness Training
                         Program has only been established for a shortperiod of time, an appropriateperiodic
                         training refiesh period has yet to be established.

                         B. Controls to Protect Information

                            No documentation or verification that the vulnerabilities identified in the February
                            2004 network penetration scan have been addressed;

                         F'EC Res~onse:The FEC has addressed and verified that the vulnerabilities pinpointed
                         by the Nessus scan have been addressed. We are in the process of fully documenting all
                         corrective actions.

                            Visitor (individuals that do not have approved daily access) logs for data center
                            access were not maintained and no compensating controls to monitor and record
                            visitor access to the data center have been implemented,

                          FEC Res~onse:The FEC does, in fact, maintain an electronic log which is the Kastle
                          Key system. Each time a person enters the room the date and time is recorded. The only
                          way to accessthe data center is with a Kastle key. Only individuals with Kastle Key
                          access privileges for the data center are allowed entry.

                            Password controls are weak:
                            o 	 There is no password lifetime set on the local area network (LAN);
                            o 	 There are no technical controls to enforce password changes on the LAN and the
                                GL system;
                            o 	 Somepasswords on the FEC LAN have not been changed since 1997;




Management's Comments to the Independent Auditor's Reports 	                                                     Page 3 1
                            o 	 The password policy cannot be updated or changed in the current version of the
                                GL system;
                            o 	 The GL system passwords do not expire;
                            o 	 There is no limitation on the number of GL system password attempts (i.e. no
                            o 	 lock-out policy);
                            o 	 There is no policy on the GL system composition of passwords; and
                            o 	 There are no controls on password length for the GL system.

                          FEC Response: The FEC is in the process of implementing the recommendations to
                          provide stronger password controls. Users will be forced through system control to
                          change their password periodically. Below is the implementation of the agency's
                          password policy, as outlined in policy 58A:

                        As many of you are aware, the Federal government has increased its focus on computer security.
                        Agencies that wocess sensitive but unclassifii information are required to enforce more
                        stringent access control policies. One stipulation of these policies is that we enhance our
                        identificationlauthenticationmethods. Due to this increasedfocus and recently initiated audit by
                        the Office of Inspector General, the Commission is implementinga formal password policy. The
                        policy (58-3.1 Logical Access Policy) and its derived FEC password standard can be found in
                        \NTSRVl\FEC-WIDE\ FEC IT Policies and Standards. Please take the time to review them both.

                        This password standard requires a change of passwords no less than every 180 days. In order to
                        ensure that every one has changed their Network, Lotus Notes and other logon passwords,
                        current passwords will expire at midnight (12:OO AM) December 13,2004. In order to logon after
                        that time you will need to change your password. As usual, any questions should be addressed
                        to the Helpdesk.

                        Summarv of FEC IT Securitv Password and Standard
                                                                        -
                             Passwords must contain a minimum of ekrht (81 . , characters.
                             Passwords must consist of a mix of upper and lower case letters, numbers, and special 

                             characters. 

                             Passwords must not contain any word found in any dictionary in any language, or be 

                             based on any word or character in literature. 

                             Passwords must not be based on user IDS,or related to personal information. 

                             Passwords must be changed no less than once every 180 days. 

                             Passwordswill not be allowed to be repeated for at least fnre generations. 

                             Users passwords must not be related to one another such that compromise of one makes 

                             others easier to guess; e.g., "abCdefgln,uabCdefg2", uabCdefg3". 

                             User IDSwill be disabled or revoked following five (5) consecutive failed login attempts. 


                        Please note, we highly recommend our employees use Pass Phrases such as
                        SeeUZmmwl or *CUZmmw.

                        Again, please be aware that these password standards am effective as of December 13,2004
                        and apply to all FEC Information Systems that require a password including;
                                Windows(your network account)
                                Lotus Notes
                                Peoplesoft
                                FEC (Keaterm)
                                Comprizon.buy




Management's Comments to the Independent Auditor's Reports 	                                                        Page 32
                        To assist you in implementingthese standards the ITD HelpDesk has created instructionson
                        changing passwords to meet these criteria. These instructions are located in \\Ntsrvl\FEC-
                        WlDRHelp Desk Information\PasswordInformation & Instructions. As always, the HelpDesk
                        can be reached at XI255 or via email.
                            There are no records of access requests granted to remote users. The FEC was unable
                            to provide access request approval documentation to support the access of all dial-up
                            and Virtual Private Network (VPN) users that we sampled for our review. In addition,
                            there was no evidence of periodic re-validations of these users;

                        FEC Response: There is a record of those individuals that have been granted access
                        through the use of the VPN. The individuals on the access list have been approved by the
                        CTO. The list is maintained by the Systems Branch. The list is periodically reviewed by
                        the CTO. It is FEC policy that all FEC employees may access the network via dialup
                        connection. Many FEC personnel have been provided with FEC laptops so that dial-up
                        access may be available at home.

                           GL system access requests are not properly documented or reviewed. The FEC was
                           only able to provide us original access matrices for eight of the 33 current GL system
                           users. Additionally, the FEC does not periodically perform revalidations of GL
                           system access;

                         FEC Res~onse:GL user matrix has been provided to the audit team. Supervisors
                         request access for people that require access to the GL system either directly to the
                         administrator or report them via the GL system Lotus notes database that is used to
                         record all administrator activity. For example, log number 159 is a request for access
                         rights.

                           The principle of "least privilege" is not consistently applied in the GL system
                           application. A high level IT official has similar access rights and privileges in the
                           GL system application as the AccountingOfficer;

                        FEC Response: The privileges for the high level IT official, were modified to allow the
                        appropriate level necessary to perform the functions of the position, at the time it was
                        identified by the audit team. This was complete months ago.

                           Data center access is not adequatelydocumented or reviewed:
                           o Four employeeshave their names misspelled on the cardholder report;
                           o One of the individuals with access to the data center was terminated recently, but
                           his access key is still active and the physical location of the key could not be
                           determined; and
                           o FEC could not identify one user who has access to the data center or justify why
                           the individual has access to the data center.

                        FEC Res~onse:Data Center is adequatelydocumented and reviewed through the use of
                        the automated Kastle Key secure entry system. Kastle is under contract to monitor access
                        24-7 to the building as well as the data center. On occasion, since names are entered




Management's Comments to the Independent Auditois Reports                                                     Page 33
                        manually by the administrativedivision, spelling errors may occur and go undetected,
                        due to the reviewers may be unaware of the correct spelling.

                                The individual in question in the second sub-bullet above, was not terminated, but
                        in fact passed away. His Kastle Key was in his possession at the time of death and was
                        unrecoverable at the time. Lost key procedures were instituted and his access was
                        revoked during August 2004. He passed away on July 21,2004. When personnel are
                        terminated, or they leave the employ of the FEC voluntarily, their key is collected in
                        accordance with personnel check out policy.

                                The individual that could not be identified was unknown to the Systems Branch
                        Manager when asked. It is not expected of the Systems Branch manager to h o w each
                        person on an access list. The person was a contract employee with proper credentials to
                        be on the access list.

                            The FEC is not in compliance with its auditing policy because it does not
                            automatically log the network activity described in the Audit Event Standarris, even
                            though it has the capability to do so.

                          FEC Reswnse: 58-3.3: Auditing and Monitor Policy and the Audit Event Standards
                          are recently approvedpolicies and standards, they were developedjust prior to the
                          audit. All of the FEC Information Systemshave not yet come under their purview.
                          The accounting system is scheduled for compliance soon.

                          C. Contingency Plan

                            FEC has not formally identified and prioritized all critical data and operations on its
                            major applications and the resources needed to recover them if there is a major
                            intenuption or disaster. In addition, we could not determine whether FEC had
                            established emergency processing priorities that will help manage disaster situations
                            more effectivelyfor the network.

                        FEC Reswnse: The FEC Mission Critical, General Support Systems, and Major
                        Applications have been identified. The rwurces and data necessary to recover those
                        entities in the event of a major interruption or disasterwill be identified when the FEC
                        completesits disaster recovery plans and procedures which is in process.

                           FEC does not have alternativeprocessing sites for most of its operations in the event
                           of a disaster, including its general ledger system

                        FEC R ~ s D o ~the s ~FEC
                                              : does not have the budget or the mission criticality to justify the
                        expenseof establishing an alternative site. The FEC has the appropriate level of data
                        processing that is consistent with its mission.

                           The FEC Disclosure Database is replicated at an off-site location as a web-enabled
                           read-only database the public can access. In the event that data cannot be updated at




Management's Comments to the Independent Auditor's Reports                                                         Page 34
                            the FEC and then replicated at off-site location, there is no operational mechanism to
                            update the Disclosure Database replicated at the off-site location.

                         FEC Response: the FEC does not have the budget or the mission criticality to justify the
                         expense of establishing an alternative site. The FEC has the appropriate level of data
                         processing that is consistent with its n~ission.

                            FEC does not have adequate capacity for most of its back-up tapes in its fireproof
                            safe; hence backup tapes are not kept in a fireproof safe.

                        FEC Response: The FEC will look into the expenses involved in expanding its fireproof
                        safe capacities. In the interim, the off-site storage facility picks up tapes on a weekly
                        basis, in the event of a catastrophe in the FEC Data Center, the maximum loss of data
                        would be one week. At this time this is considered acceptable risk

                            FEC data center is fully exposed to a wet pipe sprinkler system, with no
                            compensating controls to avert inadvertent water damage to critical hardware and
                            magnetic media in the case of a malfunction or false alarm.

                        FEC Response: In accordance with the NIST Computer Security Handbook chapter 15
                        Physical and Environmental Security, page 171, Water sprinkler systems are the
                        preferred fire extinguishing systems. See below extract:


                        Fire Extinguishment. A fire will burn until it consumes all of the fuel in the building
                        or until it is extinguished. Fire extinguishment may be automatic, as with an
                        automatic sprinkler system or a HALON discharge system, or it may be
                        performed by people using portable extinguishers, cooling the fire site with a
                        stream of water, by limiting the supply of oxygen with a blanket of foam or
                        powder, or by breaking the combustion
                        chemical reaction chain.

                        When properly installed, maintained, and
                        provided with an adequate supply of water,
                        automatic sprinkler systems are highly
                        effective in protecting buildings and their
                         content^.^ Nonetheless, one often hears
                        uninformed persons speak of the water
                        damage done by sprinkler systems as a
                        disadvantage. Fires that trigger sprinkler systems cause the water damage.'05 In
                        short, sprinkler systems reduce fire damage, protect the lives of building
                        occupants, and limit the fire damage to the building itself. All these factors
                        contribute to more rapid recovery of systems following a fire.




Management's Comments to the Independent Auditor's Reports                                                   Page 35
                        Each of these factors is importantwhen estimating the occurrence rate of fires
                        and the amount of damage that will result. The objective of a fire-safety program
                        is to optimize these factors to minimize the risk of fire.



                           FEC has not developed and documented a comprehensive contingency of operations
                           plan of its data centers, networks and telecommunication facilities.

                        FEC Res~onse:The FEC is in process of developing a disaster recovery plan that will
                        address these issues.

                        D. Software Development and Change Controls

                           System Development Life Cycle (SDLC) Methodology has not been finalized and
                           implemented.

                        FEC Res~onse:The overall agency SDLC has been drafted and the policies and
                        procedures are written. The implementation will take place with the establishmentof the
                        QualityAssuranceBranch within the IT Division, as soon as the IT organizationplan
                        takes effect. There is a Quality Assurance Manager on board and he has taken stepsto
                        begin the establishmentof appropriate QA controls.

                           No written policy has been created to manage software libraries.

                        FEC Response: See the SDLC that was provided. The management of softwarelibraries
                        is addressed in the SDLC.

                           Written procedures to modify, test, approve or release software for any of its
                           applications, including the GL system have not been documented.

                        FEC Res~onse:See the SDLC. In addition to the procedures in the SDLC, the
                        procedures and flow are depicted in graphic fonn with the key players identified in the
                        diagram for each system supported by the IT Division. The key players are identified as
                        the business owners, the IT owners with the hardware and OS identified. See sampleof
                        the major systems diagram.

                           Emergency change procedures and procedures for installing patches are not
                           documented.

                        FEC Response: See SDLC
                           Softwarecode changeswere not reviewed before being implemented.

                        FEC Reswnse: All changes to the GL system are recorded in the Lotus Data Base set
                        up to provide a log of all activity in the GL system. The changes are documented in this




Management's Comments to the IndependentAuditor's Reports                                                    Page 36
                         log, and acceptance is verified by the business owner of the GL system. As far as code
                         changes are concerned, the FEC does not own source code to any purchased software,
                         and therefore is not capable of making any code changes. We do, however maintain and
                         modify as requested, via the log any changes to application scripts developed in house
                         pertaining to the specific applicationsrequirements of the FEC.



                         REPORTABLE CONDITIONS

                         111. Cost Accounting System and Processes

                         A. Cost Allocation Methodology

                         FEC does not have a cost accounting system that is integrated with the GL system.
                         The current cost accounting system is not adequate to produce the cost data for the
                         Statement of Net Cost (SNC) in an efficient manner. Accordingly, the cost data presented
                         on the SNC is compiled from three systems' raw data, which is then gathered and
                         analyzed in an elaborate, complex, and manually intensive spreadsheet.

                         FEC Res~onse:The FEC prepares its cost allocation based on the MIS data, and the
                         Budget Execution Report (BER)-two        main sources of information. Our costs are based
                         on data that is meaningful to OMB and our oversight committees in the presentation of
                         budget requests and appropriationjustifications: actual FTE allocated to programs and
                         activities, and Budget Authority (BA), obligations, and final expenditures. These are the
                         data that they are interested in reviewing in the context of the budget and appropriation
                         processes. Both the OMB and congressional offices have commented on the quality and
                         usability of FEC budget presentations in recent years, and the proof is that the FEC has
                         attained a 3.5% increase in FY 2005 and a recommended 5.5% increase for EY 2006
                         when many domestic agencies and programs have been f r o m or even reduce in recent
                         years.

                         Raw data used in the allocation of costs, such as payroll, is sometimes based on estimates
                         due to the timing of the availability of the data.

                        FEC Res~onse: As noted during the audit in the responses to requests for information,
                        use of data from the actual NFC and FEC payroll process necessarily requires the use of
                        projections from actual data due to compressed time hmes mandated by the
                        Accountability of Tax Dollars Act and OMB regulations. Depending upon when the end
                        of the last month of a quarter falls, there is a built in 10 day to two week processing time
                        lag from when payroll data is collected and reported to the NFC and the payroll
                        information is reported back to the FEC. This necessarily requires the use of projections
                        to meet quarterly timeframes for reporting. These "estimates" are projections based on
                        actual year to date data as available when the reporting time frame falls.




Management's Comments to the Independent Auditor's Reports                                                       Page 37
                         FEC could not provide crosswalk documentation or definitions supporting the basis of
                         assignment or allocation... The data accumulation and analysis is performed by one
                         person and not subjected to a second review. In addition, the FEC did not have a formal
                         comprehensive policy and procedures for the program cost allocation. Although a written
                         procedures document was provided to us, the document was written in response to our
                         audit request and did not include a comprehensive set of procedures. The manually
                         intensive and elaborate cost allocation process dictates the need for a formal
                         comprehensive policy and procedures. Moreover, the heavy reliance on a single person to
                         carry out this process could impair FEC's ability to generate a timely and accurate report
                         when the person becomes unavailable.

                         FEC Response: Definitions of the three major programs are provided in the FEC
                        Strategic Plan, Performance Plans, and FEC Mission Statement. A document describing
                        the allocation process was provided and additional documentation and explanation was
                        provided in both written and verbal form in meetings to describe the new allocation
                        process (see below). The document in question was written prior to the audit request, but
                        was in preparation for the audit--documenting procedures in preparation for an audit is
                        part of the audit process. The FEC noted that comprehensive procedures were not
                        required due to the limited scope of the allocation process at the FEC. In a small agency
                        such as the FEC with a two person budget office, it is not unusual that one person
                        performs a function. Costs negate the ability to double-check all functions--at some
                        point officials are responsible for performing their tasks properly and efficiently, and this
                        is acceptable risk under the costs benefits test.

                        Recommendations:

                        35. Establish formal and comprehensive cost allocation methodology and related policy
                        and procedures.

                        FEC Res~onse:The FEC has documented formal cost allocation procedures; prior to
                        the FY 2002 Act the FEC did not allocate management and overhead costs to the three
                        major programs but reported them separately. The FEC does not see a cost effective need
                        for "comprehensive" detailed procedures camed out solely by the budget office,
                        particularly when as noted the system is being replaced by a new MIS and budget
                        preparation system, automated and more filly integrated with the FEC financial system,.
                        Due to the 2002 Act the FEC added requirements to the new system to automate the
                        allocation process in the new system which will be filly documented.

                        36. Cross-train employees to minimize the risks of major interruptions in normal business
                        operations.

                        FEC Response: The FEC will train several employees to use the new automated system
                        and it will be fully documented.

                        37. Establish a review process wherein a person, other than the preparer, reviews the
                        work performed to ensure accuracy and propriety.




Management's Comments to the Independent Auditor's Reports                                                       Page 38
                        FEC Res~onse:The FEC notes again that at somepoint in a small agency with limited
                        staff the costs benefits test requires that officials perform their tasks responsibly and
                        effectively. There is a limit to what tasks can be double-checkedwith a two person
                        budget office. Furthermore, as noted the new automated system will be in place and will
                        provide a built in check.

                        B. Managerial Cost Accounting

                        Statement of Federal Financial Standard No. 4, Managerial Cost Accounting
                        Concepts and Standards for the Federal Government, requires reporting components to
                        perform a minimum-level of cost accounting and provide basic information necessary to
                        accomplish the many objectives associated with planning, decision making, and
                        reporting...The present FEC cost accounting system does not provide the minimum-level
                        identified above. FEC management notified us that it is in the process of developing a
                        new cost accounting system.

                        Recommendations:

                        38. Evaluate the functional requirements for the new cost accounting system to ensure
                        that at least, the minimum level of cost accounting required in SFFAS No. 4 is attained.

                       FEC Reswnse: The FEC notes that SFFAS No. 4 is a very broadly worded and applied
                       standard that was designed to be so by OMB when it was developed. The FEC believes
                       that the current MIS and other FEC reporting systemsprovide beneficial and usefulhigh
                       level management infomation, and make even more detailed information available to
                       division and office managers. This will be improved upon in the new fully integrated
                       budget and MIS systems which will contain an automated cost allocationprocess. It is
                       not cost effectiveto take action to improve the existing system while the new system is
                       b e i i developed. The FEC notes that existing systems predated the 2002 Act that
                       required the full allocationof all management and overhead costs.

                        IV. General Property and Equipment (Property)

                       FEC's accounting for property involves a time-consuming effort that increases the risk of
                       errors due to its process of expensing its property at the time of acquisition and preparing
                       ajournal voucher to reclassify the expense to an asset for reporting purposes.
                       Our audit disclosed deficiencies, emrs or omissions that questioned the effectiveness of
                       FEC's internal control on property. Some examples are noted below:

                               Depreciation expense and accumulated depreciation reported on the depreciation
                               report were not correct. We were informed that although the property
                               management system calculates depreciation correctly, when the data is converted
                               into another system to generate the depreciation report, the calculation gets
                               corrupted. This error was identified during the audit and was subsequently
                               adjusted.




Management's Comments to the IndependentAuditor's Reports                                                      Page 39
                               Software-indevelopment was not adequately tracked and was not reported until
                               the September 30,2004 financial statements. There was one instance of software-
                               in- development being reported as completed software in the property
                               management system; therefore, the asset was being improperly depreciated.
                               Another instance was completed software that was not recorded. These errors
                               were only identified duringthe audit process.

                                Several assets were recorded using the purchase order amount, instead of the
                                actual cost.

                               For the 45 sample items we tested, we noted that 45 receiving reports were not
                               completed properly, that is, they were either not signed, did not have the date of
                               receipt, did not have a description of the goods or services received, or lacked a
                               reference to the invoice to be paid. Although only 6 of the 45 items pertained to
                               acquisitions in fiscal year 2004, this deficiency persisted throughout fiscal year
                               2004.

                        One of the five standards for internal control in GAO Standarch for Internal Control in
                        the Federal Government is control activities. Control activities occur at all levels and
                        functions of the entity. They include a wide range of diverse activities such as approvals,
                        authorizations, verifications, reconciliations, performance reviews, maintenance of
                        security, and the creation and maintenance of related records, which provide evidence of
                        execution of these activitiesas well as appropriate documentation.

                        Recommendations:

                        37. Enforce current procedures to require documentationof approvalsand certifications
                        for procurement and disbursementstransactions.

                        38. Formally communicate to all appropriate personnel to ensure compliance and
                        consistent application of the policies and procedures.

                        FEC Res~onse:FEC agrees with these recommendations. In FY 2003 and in preparation
                        for the audit FEC needed to establish asset values for prior year purchases. Detailed
                        records were not always available. Federal accounting standards allow for the use of
                        estimates where detailed records are not available. In some cases that meant using reports
                        and estimates (purchase orders) fiom as far back as FY 1997. Thus,not all receiving
                        reports were available. FEC provided the audit team with invoices, purchase orders and
                        receiving reports for FY 2004 purchases. FEC will modify its stated requirement on
                        receiving reports to delete the provision requiring a description of goods and services
                        received. Since this information is on the purchase order and invoice, it is not necessary
                        to require it on the receiving report. Instead, FEC will add an invoice number field to the
                        receiving report. This will tie the approvalto the goods or servicesreceived.




Management's Comments to the Independent Auditor's Reports                                                     Page 40
                               The error in the spreadsheet calculation of depreciation expense was caught and
                        corrected by FEC in its regular review of the financial statements. Software in Progress
                        was a new account added in FY 2004 and will be tracked quarterly in FY 2005.

                              Current procedures will be enforced. Late in FY 2004 some minor procedures
                        changed (e.,g., Software in Progress). These changes will be documented and
                        communicated to appropriate staff in early FY 2005.

                        V. Payroll
                        Recommendations:

                        39. Implement procedures to ensure that payroll deduction elections are authorized by
                        maintaining adequate supporting documentation or an ability to query the service
                        provider systems to verify these deductions if initiated by an employee without the FEC's
                        intervention. Consider traininglre-training payroll employees on the proper procedures
                        for obtaining and retaining support documents for payroll elections.

                        40. Ensure that timekeepers perform a monthly reconciliation of leave balances reported
                        in its records and the service provider records and submit the leave balance certification
                        to the finance office monthly.

                        41. Implement procedures for ensuring hours recorded on the T&A reports are properly
                        supported and authorized. Consider further automating payroll processing to decrease the
                        risk of errors.

                        42. Implement procedures for ensuring all payroll and personnel documents are properly
                        completed and authorized before payroll data is transmitted to the payroll service
                        provider for processing.

                        F'EC response: FEC's payroll is processed by USDA's National Finance Center. Seventy
                        percent of FEC's annual budget is for payroll. We were pleased that after an extensive
                        audit, CG found no incorrect payments or leave balances and had only minor suggestions
                        on improvements. .

                               The official record of an employee's leave balance is the earnings and leave
                        statement, not the manually prepared timesheets.

                               FEC agrees it is responsible for obtaining original documents (tax forms, health
                        deductions, etc.) when employees are hired. However, FEC employees may use OPM's
                        Employee Express to change certain deductions. In some cases changes are made by NFC
                        employees (TSP loan repayments) or an authorized contractor such as for enrollment in
                        the Flex Fund HCA Program. Thus,there is not necessarily a form in FEC's files for
                        every change to an employee's deductions. Of the 41 documents CG states were not in
                        FEC's files, Payroll personnel were able to produce computer screen shots showing the




Management's Commenta to the Independent Auditor'e Reporta                                                    Page 41
                        changes were made either by the employee through Employee Express, NFC or an
                        authorized FEC employee or contractor.

                               FEC recognizes there are some situations (i.e., holidays, travel) where timesheets
                        may be approved before the end of the pay period. Both cases noted by CG in the audit
                        were around holiday time, when many employees are off. Supervisors remain responsible
                        for hours worked by their employees. There is no indication this is widespread problem
                        or anyone was paid incorrectly as a result of the advanced approval of the timesheets.

                                Timekeepers and supervisors will be reminded of the proper procedures for
                        approving leave, correcting timesheets to minimize potential errors and submitting leave
                        verifications to payroll each pay period.

                        OTHER MATTERS

                        Federal Managers' Financial Integrity Act (31 U.S.C. 3512) (Integrity Act)
                        Compliance and Reporting

                        OMB Circular No. A-123 provides the reporting guidance for the Integrity Act. OMB
                        Circular A- 123 states that annually, by December 3 1, the head of each executive agency
                        submit to the President and the Congress (i) a statement on whether there is reasonable
                        assurance that the agency's controls are achieving their intended objectives; (ii) a report
                        on material weaknesses in the agency's controls, and (iii) whether the agency's financial
                        management systems conform with government-wide requirements. OMB Bulletin No.
                        01-02 required that we compare the material weaknesses in the agency's controls and
                        material non-conformances on the agency's financial management systems in the
                        FEC's Integrity Act report to our report on internal control dated November 1, 2004.
                        Since the Integrity Act report is due by December 31,2004, FEC has not started and does
                        not intend to start the process of accumulating the information required for its report until
                        November 2004. Accordingly, the comparison of reports could not be performed.

                        FEC Response: The FEC noted to CG that the A-123 annual statement process is an
                        annual one based on calendar years, not fiscal years, and is due to the President
                        December 3 1,2004, not by September 30,2004. Given the heavy workload faced by
                        FEC managers during an election year (2004), FEC management stated that we would not
                        require division and office managers to prepare their statements prior to September 30,
                        2004. The FEC notes that CG was made aware that the A-123 process at the FEC
                        requires all managers to integrate concern for management controls into the on-going
                        managerial and supervisory duties they perform on a continuing basis. This conforms to
                        the last OMB revision of the A-123 process designed to integrate management controls
                        and A-123 into the overall management processes of federal agencies.

                                It is therefore incorrect to state that the process has not been started-it is on-
                        going on a regular basis. The process of preparing and submitting the annual statements
                        to the Staff Director will not have been completed by September 30.2004.




Management's Comments to the Independent Auditor's Reports                                                       Page 42
                                FEC management did note that the December 3 1,2003 letters and statement
                        indicated that managers had discovered no major potential weaknesses or potential
                        vulnerabilities in their self assessment process. The FEC notes that the A-127 financial
                        systems management controls review process can be more than covered by the extensive
                        self-assessment the FEC and its contract audit support performed for FY 2003 processes
                        in preparation for the FY 2004 audit. It should also be noted that the review and
                        evaluation process covered by the audit is more extensive than any self-assessment
                        provided for in A-127 of financial management controls.

                                The FEC has noted in prior communications to the FEC OIG that the FEC does
                        not require a comprehensive plan to integrate its one existing financial system with any
                        other financial systems. In terms of integrating the financial system with other systems
                        such as the Budget and MIS systems, as well as property, the FEC indicates in both the
                        main FEC and FEC IT Strategic Plans and Performance Plans, the schedule for
                        improving these systems. As noted the FEC is currently engaged in developing and
                        implementing a more fully integrated MIS and budget system with the financial system.




Management's Comments to the Independent Auditois Reports                                                     Page 43
